No. 21-

In The

Supreme Court of the United States
AMA MULTIMEDIA, LLC,
Petitioner,
v.
MARCIN WANAT,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Marc J. Randazza,
counsel for Petitioner AMA Multimedia, LLC, certify that on April 8, 2021, three
copies of this Petition for a Writ of Certiorari were served by third-party commercial
carrier for delivery within three calendar days on counsel for Respondent:
Jakub P. Medrala
THE MEDRALA LAW FIRM PLLC
1091 Cimarron Road, Suite A-1
Las Vegas, NV 89145

Dated: April 8, 2021.

Marc J. Randazza

